August 30, 2010

PETER R. ALLEN
DISTRICT MANAGER, CENTRAL ILLINOIS DISTRICT

SUBJECT: Audit Report – Premium Pay at Bedford Park Computerized Forwarding
         System Unit (Report Number MS-AR-10-006)

This report presents the results of our self-initiated audit of U.S. Postal Service
Function 41 premium pay at the Bedford Park (Central Illinois District) Computerized
Forwarding System (CFS) unit (Project Number 10RG020MS000). Our objective was to
determine whether there is an operational reason for the Bedford Park CFS unit’s
Saturday shift to end at 12:30 a.m. Sunday.



CFS units process mailpieces that cannot be delivered as addressed. Undeliverable-as-
addressed mail is forwarded, returned to sender or disposed of as waste mail. The
agreement with the American Postal Workers Union and Postal Service policies
prescribe a 25 percent Sunday premium for all hours worked during a scheduled tour
that includes any part of a Sunday. Management may change schedules for sound
operational reasons, but not solely to avoid paying the Sunday premium.2

Conclusion

There was not an operational reason for the Bedford Park CFS unit Saturday shift to
end at 12:30 a.m. Sunday. The last mail transportation truck arrives at the unit at
approximately 8:45 p.m. and there is normally little or no CFS mail. As a result,
employees either take voluntary leave or remain idle for the remainder of the shift. This
occurs because the shift schedule was set several years ago at a time when it may
have been appropriate; however, unit management was reluctant to change the shift
because they cannot change an employee’s regularly scheduled reporting time solely to



1
  Function 4 operations include customer service activities – both supervisory and non-supervisory – of employees at
post offices, stations, and branches involved in automated, mechanized, manual, and Post Office box distribution of
mail, Post Office™ window, and vending equipment services; and miscellaneous administrative and Central
Forwarding System operations.
2
  Handbook EL-912, Agreement between United States Postal Service and American Postal Workers Union, AFL-
CIO 2006-2010, Article 8, Section 6.
Premium Pay at Bedford Park                                                                           MS-AR-10-006
 Computerized Forwarding System


avoid paying the Sunday premium.3 See Appendix B for our detailed analysis of this
topic.

The Postal Service incurred $40,035 in fiscal year (FY) 2008 and $37,496 in FY 2009
for Sunday premium workhours at the Bedford Park CFS. We estimate this amount
could have grown by an additional $77,531 over the next 2 years had the unit not taken
corrective action during our review. We consider the $77,531 incurred during FYs 2008
and 2009 to be unrecoverable questioned costs4 and the estimated future amount of
$77,531 to be recoverable questioned costs.5 See Appendix C.

During our review, unit management and the union representatives agreed on a new
shift schedule, which eliminated the Sunday premium. Effective July 17, 2010, the shift
schedule for the Bedford Park CFS unit is from 11 a.m. to 7:30 p.m. The shift will end
before midnight and will not require payment of Sunday premium. Therefore, we will not
make a recommendation regarding this issue as corrective actions were taken as a
result of our review.

Management agreed with the finding and monetary impact. Management addressed the
issues during our review; therefore this report does not contain any recommendations
and management opted not to provide written comments. Although the report does not
contain any recommendations, the OIG considers management’s actions taken during
the audit to be responsive to the issue identified in the report. We plan to initiate a
nationwide review of workhours related to CFS operations in FY 2011.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachment

cc: Dean J. Granholm
    Jo Ann Feindt
    Corporate Audit and Response Management



3
  Handbook EL-912, Article 8, Section 6.
4
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
5
  Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.




                                                          2
Premium Pay at Bedford Park                                                  MS-AR-10-006
 Computerized Forwarding System


                       APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether there was an operational reason for the
Bedford Park CFS unit’s Saturday shift to end at 12:30 a.m. Sunday. Our scope
included FYs 2008 through 2010 Bedford Park CFS unit Function 4 premium
workhours.

To accomplish our objective, we:

     Reviewed applicable policies and procedures relating to CFS unit operations and
       Sunday premium payment.

     Visited the Bedford Park CFS unit located in the Great Lakes Area, Central
      Illinois District, to conduct observations and interview managers, supervisors,
      and employees to obtain information on CFS operations.

     Analyzed mail volume, workhour trends, and year-to-date CFS unit performance
      data for FYs 2008 through 2010.

We conducted this performance audit from June through August 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 13, 2010, and
included their comments where appropriate.

We relied on data obtained from the Time and Attendance Collection System (TACS).
We did not directly audit the TACS, but relied on a prior OIG audit of the TACS which




                                            3
Premium Pay at Bedford Park                                                                     MS-AR-10-006
 Computerized Forwarding System


reported that TACS has sufficient application controls in place to ensure automated
clock rings entered into the application were accurately accepted and processed.6

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




6
 Application Control Review of the Time and Attendance Collection System (Report Number IS-AR-08-014, dated
August 14, 2008).




                                                      4
Premium Pay at Bedford Park                                                    MS-AR-10-006
 Computerized Forwarding System



                                  APPENDIX B: DETAILED ANALYSIS

                                                                      there is no
operational reason for the Bedford Park CFS unit’s Saturday shift to end at 12:30 a.m.
Sunday.

The Bedford Park CFS unit’s Tour III operations began on Saturday at 4 p.m. and
ended Sunday at 12:30 a.m. Although employees only work 30 minutes into Sunday,
they receive an additional 25 percent of the base hourly rate for all hours worked during
the tour. As shown in Table 1, the Postal Service incurred a total of 16,131 premium
hours and $98,728 in premium pay for FYs 2008 through 2010 at the Bedford Park CFS
unit.

                           Table 1: Premium Hours and Pay, FYs 2008-2010

                                                                 FY 2010
                     Fiscal Year            FY 2008    FY 2009               Total
                                                                  YTD7
        Total Sunday Premium Hours             6,785       5,988    3,358    16,131
        Total Sunday Premium Pay             $40,035     $37,496 $21,198    $98,728

The CFS unit’s last mail transportation truck is scheduled to arrive at the unit on
Saturdays at 8:45 p.m. However, unit management stated that there is normally very
little or no CFS mail. Using the year-to-date (YTD) mail logs through June 5, 2010, we
calculated that over the first 32 Saturdays of FY 2010 the unit received an average of
196 tubs of mail8 before 8 p.m., but only 29 tubs of mail9 after 8 p.m. Additionally, our
analysis of mail volume trends for FYs 2008 through 2010 YTD shows a decline in CFS
mail volume at the Bedford Park CFS unit (see Table 2).

                    Table 2: Mail Volume Trends and Plan, FYs 2008-2010

                                                                      FY 2010
                     Fiscal Year             FY 2008      FY 2009
                                                                        YTD
        Total Mail Processing Volume         7,777,682    6,787,565    3,889,869
        Plan Volume                          7,323,718    5,636,112    4,413,844
        Variance (Actual To Plan)              453,964    1,151,453    (523,975)

Since there is an insufficient amount of CFS mail after 8 p.m., employees will either take
voluntary leave or remain idle for the remainder of the shift. For example, during FYs
2008 and 2009, employees took a total of 2,200 hours of annual leave (AL) and 1,608
hours of leave without pay (LWOP) on Saturdays. During FY 2010 employees have


7
  Through June 5, 2010.
8
  6,278 tubs over 32 Saturdays.
9
  921 tubs over 32 Saturdays.




                                                5
Premium Pay at Bedford Park                                            MS-AR-10-006
 Computerized Forwarding System


taken approximately 500 hours of AL and 368 hours of LWOP on Saturdays as of May
21, 2010.

                           APPENDIX C: MONETARY IMPACT

                                    Monetary Impact

           Finding Impact                           Category             Amount
                                  Unrecoverable Questioned Costs          $77,531
Sunday premium workhours
                                  Recoverable Questioned Costs            $77,531

TOTAL                                                                    $155,062




                                            6
